CERTIFICATE OF SERVICE
I Richard P. Hutchison, counsel for the Amicus Curiae, hereby certify that on this Fourth
day of December, 2020, I caused copies of the Movant’s Motion for Leave to File Amicus Brief
to be served by United States mail and electronic mail on the following counsel:
Gregory H. Teufel
OGC Law, LLC
1575 McFarland Rd.,
Ste. 201
Pittsburgh, PA 15216
Counsel for Applicants
Mike Kelly, et al
Michele D. Hangley
Robert A. Wiygul John
G. Coit Christina C.
Matthias John B. Hill
Hangley Aronchick Segal
Pudlin & Schiller
One Logan Square, 27th Floor
Philadelphia, PA 19103 Counsel for
Respondents
Commonwealth of Pennsylvania, Thomas
W. Wolf, and Kathy Boockvar

Barry H. Berke
Dani R. James
Kramer Levin Naftalis &
Frankel LLP
1177 Avenue of the Americas New
York, New York 10036 Counsel for
Respondents Commonwealth of
Pennsylvania,
Thomas W. Wolf, and Kathy Boockvar
Jonathan F. Bloom Karl
S. Myers Spencer R.
Short Melissa L. Perry
Stradley Ronon Stevens and
Young, LLP
2005 Market Street, Suite 2600
Philadelphia, PA 19103 Counsel for
Respondent Pennsylvania General
Assembly

J. Bart Delone
Chief Deputy Attorney General
Sean A. Kirkpatrick
Senior Deputy Attorney General PA
Office of Attorney General
Strawberry Square, 15th Floor
Harrisburg, PA 17120
Counsel for Respondents Commonwealth of
Pennsylvania, Thomas W. Wolf, and Kathy
Boockvar
I further certify that all parties required to be served have been served.
/s/ Richard P. Hutchison
Richard P. Hutchison
Landmark Legal Foundation
3100 Broadway, Ste. 1210
Kansas City, MO 64111
(816) 931-5559
Pete.hutch@landmarklegal.org

